     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services, Region I
                                                                          John F. Kennedy Federal Building
                                                                           Room 2425
                                                                           Boston, MA 02203

May 9, 2011

Report Number: A-01-11-00507

Mr. Robert Rovella
CFO/Director of Finance
Central Vermont Medical Center
130 Fisher Road
Berlin, VT 05602

Dear Mr. Rovella:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Verification of Central Vermont Medical Center’s Refund of
Place-of-Service Overpayments for Calendar Years 2007–2010. We will forward a copy of this
report to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact David Lamir, Audit Manager, at (617) 565-2704 or through email at
David.Lamir@oig.hhs.gov. Please refer to report number A-01-11-00507 in all correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Robert Rovella


Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare and Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




  VERIFICATION OF CENTRAL
 VERMONT MEDICAL CENTER’S
REFUND OF PLACE-OF-SERVICE
OVERPAYMENTS FOR CALENDAR
     YEARS 2007–2010



                              Daniel R. Levinson
                               Inspector General

                                     May 2011
                                   A-01-11-00507



      Office of Inspector General
              http://oig.hhs.gov
The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Medicare Part B pays for services physicians provide to program beneficiaries. Although
physicians routinely perform many of these services in hospital outpatient departments or
freestanding ambulatory surgical centers (ASC), physicians also perform some services in
nonfacility settings such as physician offices, urgent care centers, or independent clinics. To
account for the increased overhead expense that physicians incur by performing services in
nonfacility locations, Medicare reimburses physicians at a higher rate for certain services
performed in these locations. However, when physicians perform these same services in facility
settings Medicare reimburses the overhead expenses to the facilities and physicians receive a
lower reimbursement rate.

Physicians are required to identify the place of service on the health insurance claim forms that
they submit to Medicare contractors. The correct place-of-service code ensures that Medicare
does not reimburse a physician incorrectly for the overhead portion of the payment if the service
was performed in a facility setting.

Our previous nationwide reviews found that several contractors overpaid physicians who did not
correctly identify the place of service on their claims. These audits identified over a million
nonfacility-coded physician services that matched outpatient hospital claims for the same type of
service provided to the same beneficiary on the same day. These reviews identified numerous
instances of overpayments to Central Vermont Medical Center (the Hospital) physicians because
claims the Hospital submitted contained an incorrect place-of-service code. The Hospital
submits claims for the overhead expenses of medical services performed at the Hospital and bills
on behalf of its physicians for Part B physician services.

The Hospital’s officials insisted on refunding all overpayments received resulting from these
place-of-service coding errors. The Hospital asked the Office of Inspector General to verify the
accuracy of its overpayment calculations so it could refund its Medicare contractor.

OBJECTIVE

The objective of our audit was to determine the amount of overpayments for claims with place-
of-service coding errors submitted by the Hospital to its Medicare contractor for calendar years
(CYs) 2007 through 2010.

SUMMARY OF FINDING

We determined that the Hospital submitted 17,728 claims with overpayments totaling $237,368
for physician services for CYs 2007 through 2010. The Hospital, billing on behalf of its
physicians, incorrectly coded these claims by using nonfacility place-of-service codes for
services that were performed in one of the Hospital’s outpatient facilities.




                                                i
RECOMMENDATIONS

We recommend the Hospital refund a total of $237,368 for overpayments resulting from coding
errors on claims submitted on behalf of Hospital physicians for CYs 2007 through 2010.

CENTRAL VERMONT MEDICAL CENTER COMMENTS

In written comments to our draft report, the Hospital concurred with our findings and
recommendation. The Hospital’s comments are included in their entirety as the Appendix.




                                              ii
                                           TABLE OF CONTENTS                                                             Page

INTRODUCTION................................................................................................................1

         BACKGROUND ........................................................................................................1
             Medicare Part B Payments for Physician Services ...........................................1
             Medicare Reimbursement for Practice Expense ...............................................1
             Prior Office of Inspector General Reports ........................................................1
             Central Vermont Medical Center ......................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
              Objective ...........................................................................................................2
              Scope .................................................................................................................2
              Methodology .....................................................................................................3

FINDING AND RECOMMENDATIONS .........................................................................3

          PAYMENTS BASED ON INCORRECT PLACE OF SERVICE ............................3
             Medicare Requirements ....................................................................................3
             Results of Review .............................................................................................4
             Inadequate Billing Controls ..............................................................................4

          RECOMMENDATIONS ...........................................................................................5

          CENTRAL VERMONT MEDICAL CENTER COMMENTS .................................5

APPENDIX
    CENTRAL VERMONT MEDICAL CENTER COMMENTS




                                                                     iii
                                   INTRODUCTION

BACKGROUND

Medicare Part B Payments for Physician Services

Medicare Part B pays for services physicians provide to program beneficiaries. Physician
services include medical and surgical procedures, office visits, and medical consultations.
These services may be provided in facility settings, such as hospital outpatient
departments and freestanding ambulatory surgical centers (ASC), or in nonfacility
locations, such as physician offices, urgent care centers, and independent clinics.

Physicians are paid for services according to the Medicare physician fee schedule. This
schedule is based on a payment system that includes three major categories of costs
required to provide physician services: practice expense, physician work, and
malpractice insurance.

Medicare Reimbursement for Practice Expense

Practice expense reflects the overhead costs involved in providing a service. To account
for the increased practice expense that physicians generally incur by performing services
in their offices and other nonfacility locations, Medicare reimburses physicians at a
higher rate for certain services performed in these locations rather than in a hospital
outpatient department or an ASC. Physicians are required to identify the place of service
on the health insurance claim forms that they submit to Medicare contractors. The
correct place-of-service code ensures that Medicare does not reimburse a physician
incorrectly for the overhead portion of the service if the service was performed in a
facility setting.

Medicare claim form instructions specifically state that each provider or practitioner is
responsible for becoming familiar with Medicare coverage and billing requirements.
Some physician offices submit their own claims to Medicare; other offices hire billing
agents to submit their claims. Physicians are responsible for any Medicare claims
submitted by billing agents.

Prior Office of Inspector General Reports

Our previous nationwide reviews (A-01-08-00528 and A-01-09-00503) found that
several contractors overpaid physicians who did not correctly identify the place of service
on their claims. These audits identified over a million nonfacility-coded physician
services that matched outpatient hospital claims for the same type of service provided to
the same beneficiary on the same day. Our recommendations in those reports called for
the Medicare contractors to educate physicians regarding proper billing, recover
identified overpayments, and analyze postpayment data to detect and recover
overpayments for improperly billed claims. The Medicare contractors and CMS
generally concurred with our recommendations.

                                             1
Central Vermont Medical Center

Central Vermont Medical Center (the Hospital) is a 122-bed acute-care hospital located
in Berlin, Vermont. The Hospital submits claims for the overhead expenses of medical
services performed at the hospital. In addition, the Hospital also bills on behalf of its
physicians for their Part B physician services. As the Medicare contractor for hospitals
and physicians in Vermont, National Heritage Insurance Corporation, Corp. (NHIC),
processes and pays the Hospital’s claims for Medicare outpatient services and its claims
for physician services.

Our nationwide reviews identified numerous instances of overpayments by NHIC to the
Hospital for physician claims that contained an incorrect place-of-service code in
calendar years (CYs) 2007 through 2010. The Hospital’s officials insisted on refunding
all overpayments received resulting from these place-of-service coding errors. The
Hospital asked the Office of Inspector General to verify the accuracy of its overpayment
calculations so it could refund NHIC. We provided our data on the miscoded claims to
the Hospital to reach agreement on the amount of the overpayments for these miscoded
claims with dates of service from January 2007 through December 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our audit was to determine the amount of overpayments for claims with
place-of-service coding errors submitted by the Hospital to its Medicare contractor for
CYs 2007 through 2010.

Scope

Based on the Hospital’s request, we performed a limited scope review to determine the
accuracy of overpayments to be refunded by the Hospital for claims with physician place-
of-service coding errors for CYs 2007 through 2010.

Our audit covered 17,807 nonfacility-coded physician services valued at $868,518 that
were provided in CYs 2007 through 2010 and that matched hospital outpatient claims for
the same type of service provided to the same beneficiary on the same day.

The objective of our audit did not require an understanding or assessment of the complete
internal control structure at the Hospital. Therefore, we limited our review of internal
controls to the billing controls in place at the Hospital to prevent future program
overpayments resulting from place-of-service billing errors.

We conducted our fieldwork in January 2011 through March 2011.




                                            2
Methodology

To accomplish our objective, we:

       •    reviewed applicable Medicare laws and regulations;

       •    used data from our place-of-service reviews for CYs 2007 through 2010 to
            identify all office-coded physician claims that matched claims submitted by the
            Hospital for the same service performed for the same beneficiary on the same
            date;

       •    calculated the difference for each of these claims between the amount paid and
            the amount that would have been paid had the place-of-service been coded
            correctly;

       •    obtained support for the Hospital-calculated overpayments on claims with place-
            of-service errors in CYs 2007 through 2010;

       •    compared our data to the Hospital’s support and worked with the Hospital to
            verify the accuracy of the overpayment total to ensure the completeness of the
            refund; and

       •    discussed the results of our review with officials of both the Hospital and NHIC.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.

                             FINDINGS AND RECOMMENDATIONS

We determined that the Hospital submitted claims with overpayments totaling $237,368
for physician services for CYs 2007 through 2010. The Hospital, billing on behalf of its
physicians, incorrectly coded these claims by using nonfacility place-of-service codes for
services that were actually performed in one of the Hospital’s outpatient clinic facilities.

PAYMENTS BASED ON INCORRECT PLACE OF SERVICE

Medicare Requirements

Medicare payment for physician services is based on the lower of the actual charge or the
physician-fee-schedule amount. 1

1
    Section 1848(a)(1) of the Social Security Act, 42 U.S.C. § 1395w-4(a)(1).

                                                       3
For a physician to receive the higher nonfacility practice expense payment for a service,
the service must meet the requirements of 42 CFR § 414.22(b)(5)(i)(B): “The higher
non-facility practice expense [relative value units] apply to services performed in a
physician’s office, a patient’s home, a nursing facility, or a facility or institution other
than a hospital or skilled nursing facility, community mental health center, or ASC
performing an ASC approved procedure.” CMS publishes a quarterly physician fee
schedule in the Federal Register showing those services that have a higher payment rate if
performed in a nonfacility setting.

Results of Review

The Hospital submitted 17,728 incorrectly coded claims for physician services for CYs
2007 through 2010. The Hospital, billing on behalf of its physicians, incorrectly coded
these claims by using nonfacility place-of-service codes for services that were actually
performed in one of the Hospital’s outpatient clinic facilities. When these services were
billed with the incorrect office place-of-service code, the physicians were paid the higher
nonfacility practice expense payment, to which they were not entitled. As a result, NHIC
incorrectly reimbursed the Hospital on behalf of its physicians for the overhead portion of
their services.

By repricing claims using the correct place-of-service code, we determined that NHIC
overpaid the Hospital, on behalf of its physicians, $237,368 for the 17,728 services that
the Hospital had billed incorrectly.

Inadequate Billing Controls

Sample items from our prior nationwide reviews identified that the Hospital did not have
adequate controls to ensure that its physician services claims were billed in accordance
with Medicare regulations during CYs 2007 through 2010. At that time, the Hospital
researched the problem and identified that both manual and system errors contributed to
the coding problem. From November 2007 through March 2008 the errors resulted from
lack of understanding on the part of the coders coupled with shortcomings in the clinic
patient accounting system. This problem was mostly corrected in April 2008 by
modifications to practice billing software. Subsequent efforts to address place-of-service
errors resulted in a programming solution to the clinic patient accounting system.
However, a January 13, 2009, system problem led to the complete failure of the
programming correction, resulting in incorrect place-of-service codes on virtually all
subsequent claims until the error was identified and corrected on October 1, 2009.
During this time, staff was unaware of these errors, as the previous system solution was
thought to have resolved the incorrect coding issue.

Although a few sporadic errors occurred after October 1, 2009, the Hospital put in place
additional controls such that no further errors have been identified after August 2010.




                                             4
RECOMMENDATION

We recommend the Hospital refund NHIC a total of $237,368 for overpayments resulting
from coding errors on claims submitted on behalf of Hospital physicians for CYs 2007
through 2010.

CENTRAL VERMONT MEDICAL CENTER COMMENTS

In written comments to our draft report, the Hospital concurred with our findings and
recommendation. The Hospital’s comments are included in their entirety as the
Appendix.




                                            5
APPENDIX




   6
        APPENDIX: CENTRAL VERMONT MEDICAL CENTER COMMENTS 


             CiCentral Vermont Medical Center 


April 6, 2011




Michael J. Armstrong
Regional Inspector General
  for Audit Services
Office of Inspector General
John F. Kennedy Federal Building
Room 2425
Boston, MA 02203

RE: 	   Central Vermont Medical Center
        Report Number: A-OI-11-00S07

Dear Mr. Armstrong,

This letter is being sent in response to recommendations made in the Draft Report issued by the
Department of Health and Human Services Office of Inspector General titled "Verification of Central
Vermont Medical Center's Refund of Place of Service Overpayments for Calendar Years 2007-2010". As it
pertains to the recommendation stated on page 5 of said report:

        " We recommend the Hospital:

                • refund NHIC a total of $237,368 for overpayments resulting from coding errors
                  on claims submitted on behalf of Hospital physicians for Cys 2007 through 2010."

Central Vermont Medical Center concurs with this recommendation. Central Vermont Medical Center,
upon receiving the Demand Letter from National Heritage Insurance Company shall remit payment in
full as requested.

Please also note that on Page 2 of the Draft Repo~t Central Vermont Medical Center is erroneously
stated as Central Vermont Baptist Medical Center.

Thank you for your consideration in this matter. Please contact me at (802) 3714190 with any questions
regarding this matter.

Sincerely,

f~~J<cudJ
Patricia L. Rickard
Director of Compliance
Central Vermont Medical Center




                                   130 Fisher Road • Berlin, YT 05602
